Department of Homeland Security
   Ofﬁce of Inspector General

              Effectiveness and Costs of FEMA’s 

             Disaster Housing Assistance Program 





OIG-11-102                                       August 2011
                                                                  Office ofInspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 20528




                                                                   Homeland
                                                                   Security
                                       AUG 1 2 2011

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses oftheFederal Emergency
Management Agency's Disaster Housing Assistance Program. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                        Matt ladacki      ~
                                        Assistant Inspector General
                                        Office of Emergency Management Oversight




               Effectiveness and Costs of FEMA's Disaster Housing Assistance Program
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


     Data Needed To Determine the Success of the DHAP Self-Sufficiency Goal..............4 


     Data Needed To Determine the Cost-Effectiveness of DHAP ......................................5 


     Cost Reduction Considerations for Future Programs ....................................................6 


     Conclusions....................................................................................................................7 


     Recommendations..........................................................................................................7 


     Management Comments and OIG Analysis ..................................................................8 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................11 

     Appendix C:           Disaster Housing Assistance Program Cost Breakdown .....................14 

     Appendix D:           Major Contributors to this Report ........................................................15 

     Appendix E:           Report Distribution ..............................................................................16 


Abbreviations
     DHAP                  Disaster Housing Assistance Program
 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency
 

     HCV                   Housing Choice Voucher
 

     HUD                   Department of Housing and Urban Development
 

     IAA                   interagency agreement
          

     IHP                   Individuals and Households Program
 

     NDRF                  National Disaster Recovery Framework
 

     OMB                   Office of Management and Budget
 

     OIG                   Office of Inspector General
 

     PHA                   Public Housing Authority
 





                       Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program
OIG


Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Federal Emergency Management Agency needs to better
                   manage interagency agreements with the Department of Housing
                   and Urban Development concerning the two Disaster Housing
                   Assistance Programs after hurricanes Katrina and Rita and
                   hurricanes Gustav and Ike. The first program was intended to
                   provide rental housing assistance and case management services to
                   move participants toward self-sufficiency. Although this 2007
                   pilot program cost more than $550 million by its expiration in
                   August 2009, there were neither adequate self-sufficiency nor cost-
                   effectiveness data to evaluate this pilot program compared with
                   other temporary housing programs.

                   Without addressing the concerns of the initial pilot program,
                   FEMA entered into a second interagency agreement with the
                   Department of Housing and Urban Development to provide the
                   same services for survivors of hurricanes Gustav and Ike in 2008.
                   Again, the agreement did not require the Department of Housing
                   and Urban Development to maintain program data to determine
                   whether the program was successful in attaining its self-sufficiency
                   goal or was cost competitive with other housing options, such as
                   the Federal Emergency Management Agency’s own Individual and
                   Households Rental Assistance Program. The Disaster Housing
                   Assistance Program for hurricanes Gustav and Ike cost the Federal
                   Emergency Management Agency an estimated $15 million in
                   administrative fees paid to the Department of Housing and Urban
                   Development for households that did not participate.

                   We recommend that Federal Emergency Management Agency not
                   enter into additional agreements for Disaster Housing Assistance
                   Programs until reliable program effectiveness and cost information
                   has been developed and the program has been compared with other
                   possible options. If future programs are deemed appropriate, we
                   recommend requiring additional program and cost-effectiveness
                   data; and evaluation of program administrative and case
                   management fees, which make up more than 40% of the program
                   costs, for possible cost reduction.




           Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program


                                          Page 1

Background
                            The Disaster Housing Assistance Program (DHAP) is a joint pilot
                            initiative undertaken by the Federal Emergency Management
                            Agency (FEMA) and the Department of Housing and Urban
                            Development (HUD). DHAP provided temporary housing rental
                            assistance and case management services for disaster survivors
                            displaced by hurricanes Katrina and Rita and, subsequently, by
                            hurricanes Gustav and Ike. This was accomplished through two
                            separate interagency agreements (IAAs) between FEMA and HUD.

                            DHAP Katrina, a pilot housing program for survivors of hurricanes
                            Katrina and Rita, began in July 2007, 23 months after the disaster
                            was declared, when the President determined that housing
                            assistance would be transitioned to HUD, and continued through
                            August 2009. DHAP Katrina was intended to provide rental
                            housing for survivors in need of long-term housing assistance and
                            to prepare these families for the future by promoting self-
                            sufficiency through case management services. To assist in the
                            implementation of DHAP Katrina, the Office of Management and
                            Budget (OMB) provided FEMA a waiver of OMB Circular A-87,
                            Cost Principles for State, Local and Indian Tribal Governments,
                            and OMB Circular A-102, Grants and Cooperative Agreements
                            with State and Local Governments, and allowed DHAP to be
                            operated under HUD’s Housing Choice Voucher (HCV) financial
                            management controls.

                            Following hurricanes Ike and Gustav in 2008, FEMA entered into
                            another IAA with HUD to provide rental assistance and case
                            management services for hurricane survivors. DHAP Ike began in
                            November 2008, 1 month after the disaster was declared.
                            According to FEMA, an oral OMB waiver was granted for DHAP
                            Ike, allowing it to be operated under HUD’s HCV financial
                            management controls. The DHAP Ike IAA was designed,
                            implemented, and administered by HUD in coordination with, and
                            on behalf of, FEMA. As stated in the accompanying Federal
                            Register notice, the goal of DHAP Ike was to provide disaster
                            survivors with rental assistance and case management services. It
                            currently has a revised end date1 of September 30, 2011.

                            To participate in either of the DHAPs, disaster survivors had to
                            apply to FEMA for assistance; eligible applicants were referred to
                            HUD, which used its existing network of local Public Housing
                            Agencies (PHAs) to administer and implement the program. PHAs

1
    The original end date was March 13, 2010, but DHAP Ike has been extended four times.
                    Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program


                                                   Page 2

        have local market knowledge and the expertise to assist families
        through tenant-based subsidy programs. The PHAs place disaster
        survivors into housing units and make rental assistance payments
        on behalf of eligible families to participating landlords. After
        several months of full subsidy, families are required to pay a
        portion of the rent, starting at $50 per month and gradually
        increasing their contributions, to encourage and help prepare them
        to assume full responsibility for their housing costs at the end of
        DHAP participation. The PHAs are also responsible for
        administering case management services, such as identifying
        nondisaster supported housing solutions, assisting participants in
        securing employment, and connecting them to the public benefits
        for which they are eligible.

        As of November 2010, DHAP Katrina had provided housing to
        36,818 households at a cost of $552.8 million, and DHAP Ike had
        provided housing to 25,316 households at a cost of $281.3 million.




Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program
 


                                Page 3
 

Results of Audit
        Data Needed To Determine the Success of the DHAP Self-
        Sufficiency Goal
                 The case management services for DHAP Katrina and DHAP Ike, which
                 were featured in the programs’ respective Federal Register notices, were
                 intended to assist survivors in transitioning toward self-sufficiency2.
                 These services, which had not been part of FEMA’s prior temporary
                 housing programs, were unique to this program. However, the IAAs
                 crafted by FEMA were missing specifics concerning the intended goal of
                 participant self-sufficiency through case management and how this goal
                 would be tracked. FEMA did not require HUD or the PHAs to report on
                 the extent of case management services or their effectiveness in
                 transitioning disaster survivors toward self-sufficiency.

                 The HUD quarterly management reports required by the IAAs were of
                 limited use to FEMA because they were missing information about the
                 participants’ progress. For example, FEMA officials were unaware of the
                 case management needs of participant families or their rate of progress as
                 they proceeded through the program. As a result, FEMA was unable to
                 quantify whether DHAP case management services met the self-
                 sufficiency goal. FEMA housed 36,818 households through DHAP
                 Katrina without an agreement on how this program should lead program
                 participants toward self-sufficiency and how its successes should be
                 measured.

                 HUD officials provided documentation showing that 14,192 (39%)
                 households moved on to their HCV program prior to, or at the conclusion
                 of, DHAP Katrina, and 22,626 (61%) of households left DHAP Katrina
                 for reasons such as voluntarily ending program participation, violation of
                 family obligations,3 evictions, or death. Although 61% of households
                 ended their participation, FEMA does not have accurate information on
                 the number of participants who attained self-sufficiency.

                 As of November 2010, DHAP Ike had provided housing to 25,316
                 households. Currently, at least 5,850 households (23%) continue to need
                 assistance. During the audit, HUD and PHA officials said that these
                 families will most likely transition to the HCV program. Once again,
                 FEMA was unable to use the information to determine the number of
                 participants who attained self-sufficiency.

2
  During the course of our audit, the Federal Emergency Management Agency and the Department of
Housing and Urban Development did not have a unified definition for “self-sufficiency.”
3
  A violation of family obligations is a HUD term defined in 24 CFR Part 982.551. Overall, the HUD
regulation outlines the program participation terms for families in the HCV housing program.
                  Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program


                                                 Page 4

     We tested 1,547 DHAP Katrina and Ike participant files to determine
     whether the self-sufficiency goal was attained. Approximately 50% of all
     tested records for DHAP Katrina and Ike were missing evidence to
     determine participant self-sufficiency. However, the records that did have
     evidence disclosed the following data:

              DHAP Katrina—106 of 340 (31.2%) households were designated
              as self-sufficient.

              DHAP Ike—100 of 341 (29.3%) households to date are designated
              as self-sufficient.

Data Needed To Determine the Cost-Effectiveness of DHAP
     Although DHAP Katrina cost more than $550 million by its expiration in
     August 2009 and DHAP Ike has cost more than $280 million (table 1),
     FEMA was unable to use the data to compare actual costs of these
     programs with other possible temporary housing options, such as the
     FEMA Individuals and Households Rental Assistance Program (IHP),
     which provides up to 18 months of short-term housing. In addition,
     FEMA officials said that with the OMB waivers, they did not follow their
     standard grants management requirements but relied heavily on HUD’s
     framework of oversight, program integrity, and financial management.

     Table 1. Cost Breakdowns for DHAP Katrina and Ike as of
               November 5, 2010
                 Costs                         Katrina              Ike
      Fees                                    $164,439,446        $98,576,688
      Case Management Fees                     $61,666,525        $29,256,400
      Deposits                                           $0       $25,326,631
      Housing Assistance                      $326,669,542       $128,155,684
      Total Costs for each DHAP               $552,775,513       $281,315,403
      Total Costs of DHAPs                            $834,090,916

     Our analysis showed that the rental cost per household over the life of the
     program was $8,872 for DHAP Katrina and, to date, $7,302 for DHAP
     Ike. However, these numbers cannot be used as meaningful cost-of­
     housing figures because data were not available showing the length of
     time that participants resided in program housing. Without such
     information, we were unable to determine any cost-effectiveness
     measures. Participants who might have stayed in the program’s housing
     for only 1 month are not adequately differentiated from those who stayed
     in the housing for a year or more in the determination of this average
     rental cost. In addition, the average rental costs do not account for the
     administrative and case management costs of more than $353 million paid

      Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                     Page 5
     to HUD and the PHAs, which adds more than 40% to the program costs
     and should be considered part of the housing costs.

Cost Reduction Considerations for Future Programs
     The two DHAPs differed significantly in the way FEMA was charged
     administrative fees for participants who were referred to HUD, thereby
     affecting FEMA’s cost. For DHAP Katrina, only individuals identified by
     FEMA with a continuing need for housing at the closeout of FEMA’s IHP
     program were referred to HUD. According to the DHAP Katrina
     Operating Requirements, PHAs received $92 per month for each
     household referred until the family exited the program or the program
     ended. Of the 46,937 households that FEMA referred to HUD, 10,119
     ultimately declined to participate in DHAP Katrina. Although there are no
     data that detail how many months passed before the families declined
     participation in DHAP Katrina, the cost to FEMA for these families would
     have been $930,948 per month.

     Under DHAP Ike, FEMA referred to HUD all disaster survivors who
     qualified for FEMA IHP rental assistance, and agreed to pay the PHAs an
     administrative fee of $1,000 for each of the 40,140 families referred,
     regardless of their participation. However, 14,824 of those households
     declined to participate in DHAP Ike, costing FEMA $14,824,000. FEMA
     would have saved $14,824,000 if it had referred to HUD only those families
     that agreed to participate.

     In addition to the fees paid upon each applicant’s referral to the PHAs,
     FEMA paid the PHAs administrative fees based on a percentage of each
     participant’s estimated Housing Assistance Payments. For DHAP Katrina,
     the percentage was 15%; for DHAP Ike, it was 14%. Overall,
     administrative fees accounted for 30% of DHAP Katrina costs and 35% of
     DHAP Ike costs. Figure 1 shows the high-level breakdown of DHAP
     costs. Appendix C provides a detailed breakdown of DHAP rental,
     administrative, and other costs.




      Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program
 


                                      Page 6
 

     Figure 1. DHAP Cost
     Breakdown
                        DHAP Disbursements Breakout
                           As of November 5, 2010

          DHAP - Katrina               DHAP - Ike


                                                              Administrative Fees
                     30.0%                      35.0%
                                                              Case Management
          58.9%                     54.6%
                                                              HAP & Deposits
                      11.1%
                                               10.4%




Conclusions
     More than $830 million has been spent on the DHAP efforts under two
     IAAs without FEMA obtaining program and cost-effectiveness data that
     could be used to measure the success of key aspects of the program or to
     compare the program with other possible alternatives. Although FEMA
     did not have adequate analysis of the success or cost-effectiveness of the
     first DHAP, FEMA officials entered into a second IAA for a DHAP for
     survivors of hurricanes Ike and Gustav. This IAA was also deficient in its
     requirement for tracking and reporting costs and program effectiveness.

     FEMA should not enter into another DHAP agreement without
     determining how successful and cost-effective the program has been to
     date. If FEMA does determine that another DHAP is warranted, then it
     should determine whether the agreement should be developed in
     accordance with HCV program guidance requirements. In either case, the
     IAA needs to require the participating agencies to define, track, and report
     meaningful data on success in promoting self-sufficiency and on costs per
     month per household of housing the served population.

     In addition, given the federal funds at risk, FEMA needs to reduce the
     administrative costs of future DHAPs and ensure that service fees are paid
     only for households that receive housing services.

Recommendations
     We recommend that the Assistant Administrator, Recovery:

     Recommendation #1: Conduct a cost-benefit analysis for DHAP and
     renew the program only if the analysis demonstrates the program to be the
     same as or superior to other housing program options available to FEMA.
     Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                    Page 7
     Recommendation #2: If it is determined that future DHAPs are
     warranted:

        A. Implement needed FEMA program, financial management, and
           oversight policies, procedures, and framework into DHAP
           Interagency agreements.

        B. Establish requirements for cost and program effectiveness data to
           be maintained and reported to FEMA on a regular basis.

        C. Identify the areas of administrative fees being charged under
           DHAP, evaluate their benefits, and, if appropriate, negotiate an
           appropriate reduction in fees.


Management Comments and OIG Analysis
     FEMA concurs with Recommendation 1, Recommendation 2 B, and
     Recommendation 2 C. When the DHAP Ike program ends on September
     30, 2011, FEMA will conduct a cost-benefit analysis. FEMA will
     consider the results in determining whether it makes economic and
     programmatic sense to continue DHAPs.

     Since this analysis will take some time to complete, FEMA needs the
     interim flexibility to use the DHAP if it is deemed essential for housing
     disaster survivors. FEMA and HUD are working on an IAA that will
     provide DHAP housing assistance and will address FEMA’s need for
     increased reporting frequency, increased specific family and program data,
     and increased financial data to run the program and analyze its
     effectiveness. FEMA is also addressing the administrative fees and
     negotiating a new fee structure for this agreement. In addition, a
     Computer Matching Agreement is being developed to enable the two
     agencies to safely share data.

     FEMA continues to work with HUD to develop the National Disaster
     Recovery Framework (NDRF). When finalized, the NDRF will organize
     support for communities, including housing. HUD will serve as a
     coordination point when assistance is requested to address housing issues
     after disasters.

     We agree with the actions that FEMA has taken and is taking to address
     these issues. We believe the cost-benefit analysis will provide FEMA
     officials with a sound basis for decision-making on future DHAPs. We
     agree with FEMA’s need to continue efforts to provide housing assistance
     through DHAP in the interim and to work with HUD to develop the
     NDRF. The additional reporting requirements and efforts to address and
     Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                    Page 8
renegotiate the administrative fee structure will improve the cost-
effectiveness of any interim DHAP. We will determine the status of these
recommendations once we receive the detailed corrective action plan in
FEMA’s 90-day letter.

FEMA did not concur with Recommendation 2 A, as previously written.
FEMA said that it cannot comment on the program integrity, financial
management, or oversight framework used by HUD to administer DHAP.

FEMA is correct that commentary on HUD’s program finance, and
oversight would be inappropriate. The intent of our recommendation was
to address FEMA’s need for its specific program, financial, and oversight
requirements to be included in the implementation of any future DHAP.
The inclusion of FEMA’s requirements will allow enhanced decision-
making and oversight. In light of FEMA’s response, we reworded the
recommendation to convey this message. We will determine the status of
this part of the recommendation once we receive the detailed corrective
action plan in FEMA’s 90-day letter.




Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program
 


                                Page 9
 

Appendix A
Purpose, Scope, and Methodology

                     The purpose of this audit was to determine whether FEMA has
                     adequate information to determine if DHAP has achieved its
                     desired outcome of participant self-sufficiency or independence,
                     and if the program is cost-effective in comparison with other
                     possible emergency housing programs.

                     We interviewed officials from FEMA’s Individual Assistance
                     Division and Virginia National Processing Service Center, and
                     HUD’s Office of Public and Indian Housing and Office of
                     Inspector General on the creation, goals, and implementation of
                     DHAP.

                     We examined 1,547 DHAP participant files to determine to what
                     extent DHAP participants moved toward self-sufficiency. During
                     our initial fieldwork site visits, we tested 1,435 DHAP participant
                     files sampled from the top six Public Housing Authorities that
                     housed DHAP disaster survivors. One of the PHAs visited was
                     able to provide records for DHAP Ike participants but not for
                     DHAP Katrina participants. We consulted with HUD officials to
                     resolve this issue, and arranged for the PHA to provide all DHAP
                     Katrina participant files for our review. In our second site visit, we
                     tested an additional 112 files to ensure that the PHA had all DHAP
                     Katrina participant files to satisfy our testing methodology.

                     Our analysis is based on direct observation, review of applicable
                     documentation, and interviews. We conducted this performance
                     audit between May and December 2010, pursuant to the Inspector
                     General Act of 1978, as amended, and according to generally
                     accepted government auditing standards. Those standards require
                     that we plan and perform the audit to obtain sufficient, appropriate
                     evidence to provide a reasonable basis for our findings and
                     conclusions based upon our audit objectives. We believe that the
                     evidence obtained provides a reasonable basis for our findings and
                     conclusions based upon our audit objectives.




             Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                           Page 10
Appendix B
Management Comments to the Draft Report



                                                                                 U.S. l){"pa rt lUc nt of Il omela nd Sec urity
                                                                                 Washingtoll. DC 20472




                                      JuLt' ll1i 2011

        MEMORANDUM FOR,               Mall ladacki
                                      Assistant Inspector Gcncf<ll
                                      Office of Emergency Management Agency

                                      David J. Kaufman   f ll --
                                      Director           ~
                                      OfrLce of Poliey and Program Analysis

        SUBJECT,                      Response to Office of Inspector Gcneral (OIG) Draft Report, Effectiveness
                                      and Costs of FEMA 's Disaster /-Iol/sing Assistance Program

        Thank you for the opportunity to review and provide comments on your Draft Report, Effectiveness
        and Costs ofFEMA 's Disaster /-Iol/sillg Assistallce Program (OIG Project # 10-OI4-EMO-FEMA).
        Your report explained the actions takcn by your office to review the Disaster Housing Assistance
        Pilot Program (DHAP) and identi fied measures th at the Federal Emergency Management Agency
        (FEMA) could take to improve the program's overall effectiveness. Our response to the two
        recommendations outlined in the Draft Report report follows.

        Ba ckground :
        DHAP refers to two pilot grant prol:.>Tams developed through a partnership between FEMA and the
        Department of Housing & Urban Development (HUO) to provide temporary housing assistance and
        housing service connection assistance to eligible individuals and households . OHAP is intended to
        provide a tool to FEMA for those situations where the Agency's traditional temporary housing
        assistance programs co ul d be bolstered by the use of HUD's Public Hous ing Agencies (PH As). The
        DHAP programs are administered through HUD's existing infrastructure of PHAs to bell' FEMA
        facilitate the transition of disaster survivors to non-disaster housing.

        Under DHAP, HUD provides resources through PHAs fo r rental assistance, security and uti lity
        deposits, and housing service connection for households that are eligible fo r FEMA housi ng
        ass istance under Section 408 of the Robert T. Stafford Disaster Reliefand Emergency Assistance
        Act, as amended (42 U.S.c. 5174). PHAs execute Disaster Rent Subsidy Contracts (DRSCs) with
        participating landlords to provide rental assistance directly to landlords on behalf of those di saster
        survivors referred to HUD by FEMA . To participate in DHAP, each part icipating household must
        agree to participate in DHAP Service Connection programs, wherein PHAs refer households to case
        management providers and other social services for any identi fi ed disaster·related unmet needs.
        Due to the severi ty of Hurricanes Katrina & Rita in 2005 and Gustav & Ike in 2008 , abnonnally
        large numbers of individuals and houscholds required temporary hous ing and were expected to need
        long·tenn housing assistance.


                                                                                 www.fcma .llov




                Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                                        Page 11
Appendix B
Management Comments to the Draft Report




        As a result, FEMA and HUD executed an Interagency Agreement (lAA) to implement DHAP for
        each of these combined events. The IAAs were developed at different stages in the disaster. The
        first, DHAP-Katrina, was implemented more than two years after the disaster occurred. while
        DHAP-Ike was implemented less than two months after the disaster was declared.

        FEMA's Response to OIG's Recommendations:
        Recommendation 1: Conduct a cost-benefit analysis for DHAP and renew the program only if the
        analysis demonstrates the program to be the same as or superior to other housing program options
        available to FEMA.

        FEMA's Response: FEMA concurs with the recommendation to conduct a cost-benefit analysis of
        DHAP and will begin that analysis following conclusion of the DHAP Ike program which is
        scheduled to end September 30, 2011. It will take some time for the cost-benefit analysis to be
        completed, and during this interim period FEMA needs the flexibility to utilize the DHAP program
        should it be essential to meet the housing needs of disaster survivors. FEMA and HUD are
        currently working on an Inter-Agency Agreement (lAA) for use in such an event should it become
        necessary. Once the cost-benefit analysis is completed, FEMA will consider the results in
        determining whether or not it makes economic and programmatic sense to continue having the
        DHAP program available to meet FEMA's mission requirements and disaster survivors' housing
        needs.

        Recommendation 2 (includes parts A, B, and C): If it is determined that future DHAP
        programs are warranted:

           A. Determine whether they should be administered 10 accordance with the Housing Choice
              Voucher (HCy) Programs integrity, fmancial management and oversight framework.

           FEMA Response: FEMA non- concurs with this recommendation. As the HCV Program is
           managed by HUD, FEMA CatUlot comment on the program's integrity, financial management or
           oversight framework. FEMA continues to partner with HUD on exploring additional options for
           addressing the housing needs of disaster survivors through the National Disaster Housing Task
           Force (NDHTF) and the National Disaster Recovery Framework (NDRF). While not yet
           finalized, the NDRF will organize support for communities through Recovery Support Functions
           (RSFs) which are delineated along sector lines, including Housing. The Housing RSF, which is
           led by HUD, will not direct any jurisdiction to implement specific housing solutions, but will
           serve as a coordination point when requested for assistance to address housing issues after
           disasters.

            B. EstabUsh requirements for cost and program effectiveness data to be maintained and
               reported to FEMA on a regular basis.

           FEMA Response: FEMA concurs with this recommendation. As discussed above, FEMA and
           HUD are in the process of developing an IAA which would address the need to increase
           reporting frequency, increase and specify family/program data, and increase financial data
           required to run the program and analyze its effectiveness. Learning from the KatrinalRita and
           Ike/Gustav pilots, changes may be implemented which would allow the program to operate in a
           more expedient and fiscally prudent matUler. Although FEMA expects to sign this lAA before

                                                                                                           2




                Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                                   Page 12
Appendix B
Management Comments to the Draft Report




           the completion of the cost-benefit analysis, FEMA will incorporate findings from that analysis
           into the document, as appropriate. Additionally, FEMA and HUD are developing a Computer
           Matching Agreement (CMA) which would enable each agency to safely share data in a more
           timely and effective manner.

           C. Identify the areas of administrative fees being charged under DHAP, evaluate their
              benefits, and, if appropriate, negotiate an appropriate reduction in fees.

           FEMA Response: FEMA concurs with this recommendation. In the current efforts to develop a
           new DHAP IAA, FEMA has been actively engaged in discussions with HUD regarding the
           administrative fees associated with DHAP. As a result of those discussions, FEMA has a clearer
           understanding of the rationale for the administrative fees and is currently in the process of
           negotiating a new fee structure. Once the cost-benefit analysis is completed, FEMA will also
           take those results into consideration and will modify the lAA as needed.

        Again, we thank you for the opportunity to review and provide comments on your Draft Report.
        Please feel free to contact Bradley Shefka; Chief, FEMA GAO/OIG Audit Liaison Office; regarding
        any questions or concerns.




                                                                                                            3




               Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                                   Page 13
Appendix C
Disaster Housing Assistance Program Cost Breakdown

DHAP Katrina 



      DHAP Katrina Cost Breakout as of                                DHAP Katrina Disbursements Breakout
             November 5, 2010                                                as of November 5, 2010
      Cost          Amount      Percentage
                                                                         17%
Housing
Assistance
Payment           $326,669,542      59.10%
                                                                                               59%    HAP
PHA Admin Fees     $95,586,660      17.29%                   11%                                      Placement Fees
HUD Admin Fees     $19,622,736        3.54%                                                           HUD Admin Fees
Case                                                                                                  Case Management
Management         $61,666,525      11.16%                     4%                                     PHA Admin Fees
Placement Fees     $49,230,050        8.91%
                                                                    9%


Cumulative             $552,775,513         100.00%




DHAP Ike
 



        DHAP Ike Cost Breakout as of                                      DHAP Ike Disbursements Breakout
             November 5, 2010                                                   as of November 5, 2010
      Type          Amount      Percentage                                      4%
                                                                          5%
Housing
Assistance                                                      10%
                                                                                                      HAP
Payment           $128,155,684       45.56%                                                           PHA Admin Fees
PHA Admin Fees     $53,242,836       18.93%                                                    46%    HUD Admin Fees
                                                             10%
HUD Admin Fees     $18,267,876        6.49%                                                           Case Management
Case                                                                                                  Placement Fees
Management         $29,256,400       10.40%                                                           Rental Deposit
                                                               6%
Placement Fees     $27,065,976        9.62%                                                           Utility Deposit


                                                                          19%
Rental Deposit          $13,655,914           4.85%
Utility Deposit         $11,670,717           4.15%
Cumulative             $281,315,403         100.00%




                  Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                                Page 14
Appendix D
Major Contributors to this Report

                      Office of Emergency Management Oversight

                      Kaye McTighe, Director
                      Nigel Gardner, Audit Manager
                      Christine Alvarez, Auditor in Charge
                      Julie Wong, Auditor
                      Nathaniel Nicholson, Auditor
                      Ronald Jackson, Auditor
                      Chiquita Washington, Auditor
                      Jeanette Burbank, Office Manager
                      Brandon Landry, Independent Referencer

                      Office of Audits

                      Mohammad Islam, Audit Manager, Technical Assistance Group




              Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                            Page 15
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Chief of Staff
                      Associate Administrator, Response and Recovery
                      Deputy Associate Administrator, Response and Recovery
                      Assistant Administrator, Recovery
                      FEMA Audit Liaison (Project Number 10-014-EMO-FEMA)

                      Office of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              Effectiveness and Costs of FEMA’s Disaster Housing Assistance Program

                                            Page 16
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
